UNITED STATES COURT OF APPEALS FOR THE SEVENTH CIRCUIT

Office of the Clerk
Phone: (312) 435-5850
www.ca7.uscourts.gov

Everett McKinley Dirksen United States Courthouse
Room 2722 - 219 S. Dearborn Street
Chicago, Illinois 60604

ORDER
September 9, 2020
Before
DIANE P. WOOD, Circuit Judge
MICHAEL Y. SCUDDER, Circuit Judge
JOHNATHAN PINNEY,
Plaintiff - Appellant
No. 20-1932

v.
STATE OF ILLINOIS, et al.,
Defendants - Appellees

Originating Case Intfonmation:
District Court No: l:19-cv-08338
Northern District of Illinois, Eastern Division
District Judge Mary M. Rowland

1. REQUEST FOR EXCEPTION AND PERMISSION TO PROCEED PRO SE, filed on
August 3, 2020, by the pro se appellant.
:2.~AFFIDAVIT'ACCOMPANYING MOTION FOR PERMISSIQN TQ APPEAL IN-FORMA
PAUPERIS, August 11, 2020, by the pro se appellant.
3. MEMORANDUM IN SUPPORT OF PLRA MOTION FOR LEAVE TO PROCEED IN
FORMA PAUPERIS, August 11, 2020, by the pro se appellant.
A review of this case indicates that the appellant is not permitted to proceed in forma
pauperis under 28 U.S.C. ยง 1915(g). The district court properly determined that, on
three or more prior occasions, the appellant has brought an action that was dismissed
on the grounds that it is frivolous or fails to state a claim upon which relief may be
granted. See, e.g., Pinney v. Organizations and Agents of the States, No. 1.11 cv 4480 (N.D.
Ill., Aug. 2, 2011); Pinney v. Bureaucracy, No. l:ll-cv-4481 (N.D. Ill. Aug. 5, 2011);
Pinney v. United States Supreme Court, No. l:19-cv-3842 (D.D.C. Feb. 25, 2020). In this
case, the appellant has not demonstrated imminent danger of a serious physical injury
pursuant to ยง 1915(g). See Taylor v. Watkins, 623 F.3d 483 (7th Cir. 2010). Accordingly,

No. 20-1932

Page 2

IT IS ORDERED that the motion for leave to proceed on appeal in forma pauperis is
DENIED. See 28 U.S.C. ยง 1915(g). The appellant shall pay the required docketing fee
within 14 days, or else this appeal will be dismissed for failure to prosecute pursuant to
Circuit Rule 3(b).

form name: c7_Order_3J(form ID: 177)

